Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





     MEDICARE’S PROGRAM 

   SAFEGUARD CONTRACTORS:

   ACTIVITIES TO DETECT AND 

    DETER FRAUD AND ABUSE 





                    Daniel R. Levinson

                     Inspector General 


                       July 2007

                     OEI-03-06-00010

               Office of Inspector General 

                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations. These assessments help reduce waste,
abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on
significant issues. Specifically, these evaluations focus on preventing fraud, waste, or
abuse and promoting economy, efficiency, and effectiveness in departmental programs.
To promote impact, the reports also present practical recommendations for improving
program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. OCIG imposes program exclusions and civil
monetary penalties on health care providers and litigates those actions within HHS.
OCIG also represents OIG in the global settlement of cases arising under the Civil False
Claims Act, develops and monitors corporate integrity agreements, develops compliance
program guidances, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
Δ   E X E C U T I V E                    S U M M A R Y


                  OBJECTIVE
                  To assess three selected activities that program safeguard contractors
                  (PSC) performed in 2005 to detect and deter fraud and abuse in
                  Medicare Parts A and B.


                  BACKGROUND
                  The Medicare Integrity Program was established in 1996 to strengthen
                  the Centers for Medicare & Medicaid Services’ (CMS) ability to reduce
                  fraud and abuse in the Medicare program. In 1999, CMS began
                  transferring the responsibility for detecting and deterring fraud and
                  abuse in Medicare Parts A and B from carrier and fiscal intermediary
                  fraud units to PSCs. CMS completed this transfer of responsibilities in
                  2006. CMS now awards benefit integrity task orders to PSCs to perform
                  the work of detecting and deterring fraud and abuse. CMS has the
                  option of renewing or terminating task orders at the end of a
                  performance period. A typical performance period lasts 1 year. In 2005,
                  the year of our evaluation, seven PSCs performed the work under
                  17 task orders (not including a 2-month task order that was excluded
                  from our analysis). In this report, the term “PSC” represents a PSC
                  benefit integrity task order.

                  As part of their duties, PSCs conduct investigations to determine the
                  facts and magnitude of alleged fraud and abuse. Upon completing
                  investigations, PSCs determine whether to refer the investigations as
                  cases to law enforcement. CMS expects PSCs to be innovative and
                  effective in data analysis, moving beyond the capabilities of carrier and
                  fiscal intermediary fraud units. This was one of the reasons for
                  awarding contracts to PSCs. CMS expects a significant part of PSC
                  data analysis to be proactive, i.e., self-initiated exploratory analysis that
                  seeks previously unidentified patterns or instances of fraud and abuse.

                  The Office of Inspector General conducted this study to gain an
                  understanding of PSC accomplishments in the primary activities of
                  investigations, case referrals to law enforcement, and proactive data
                  analysis as reflected in PSC workload statistics.

                  We collected PSC workload statistics as well as all PSC monthly status
                  reports for calendar year 2005 from CMS. The monthly status reports
                  contain PSCs’ narrative and numerical information about their
                  activities and issues. We also collected budget allocation and level of


OEI-03-06-00010   MEDICARE’S PSCS: ACTIVITIES   TO   DETECT   AND   DETER FRAUD   AND   ABUSE   i
E X E C U T I V E              S U      M M A R Y


                   PSC oversight responsibility (i.e., dollar amount of paid claims) from
                   CMS for each task order.


                   FINDINGS
                   Program safeguard contractors differed substantially in the number
                   of new investigations and case referrals to law enforcement
                   produced in 2005; some had minimal activity in these primary
                   workload categories. PSCs produced between 5 and 479 new Part A
                   investigations, with a median of 60. The four lowest PSCs had between
                   5 and 19 new Part A investigations for the year. PSCs produced
                   between 0 and 10 new Part A case referrals to law enforcement, with a
                   median of 3. Three PSCs had only one new Part A case referral, and
                   two PSCs had none.

                   PSCs produced between 18 and 3,707 new Part B investigations, with a
                   median of 196. Three of these PSCs had 80 or fewer new Part B
                   investigations. PSCs referred between 2 and 39 Part B cases to law
                   enforcement, with a median of 13. Three PSCs had two, three, and four
                   new Part B case referrals, respectively.

                   Although PSCs might be expected to differ from one another in
                   workload activity levels, neither the size of a PSC’s budget nor its
                   oversight responsibility was strongly correlated with the number of new
                   investigations or the number of new case referrals to law enforcement
                   produced in 2005.
                   Most program safeguard contractors had minimal results from
                   proactive data analysis. Thirteen of seventeen PSCs (77 percent)
                   reported 18 percent or less of new investigations from proactive data
                   analysis. Of these 13 PSCs, 7 had 8 percent or less. Two of the seven
                   PSCs produced no new investigations from proactive data analysis, and
                   one PSC had only one new investigation from this source. Almost half
                   the PSCs (7 of 17) had only one case referral to law enforcement that
                   originated from proactive data analysis. One PSC had none.

                   In addition to conducting our review of workload statistics, we reviewed
                   PSC monthly status reports for any descriptions of proactive data
                   analysis. Although CMS does not specifically require that descriptions
                   of proactive data analysis or its results be included in monthly status
                   reports, we found that all PSCs mentioned proactive data analysis in at
                   least one month’s report during the year. We do not know if the absence
                   of information about proactive data analysis in the remaining months
                   indicates that the activity did not take place. In the reports that

 OEI-03-06-00010   MEDICARE’S PSCS: ACTIVITIES   TO   DETECT   AND   DETER FRAUD   AND   ABUSE   ii
E X E C U T I V E              S U      M M A R Y


                   mentioned proactive data analysis, some PSCs repeated the exact
                   language about the same project in numerous monthly reports.
                   Moreover, we found no consistency across PSCs regarding the level of
                   detail about proactive data analysis included in the monthly status
                   reports.


                   RECOMMENDATIONS
                   To determine why certain PSCs have minimal or no activity in new
                   investigations or new case referrals to law enforcement, especially as a
                   result of proactive data analysis, CMS should:

                   Review program safeguard contractors with especially low volumes
                   of activity in investigations and case referrals for Medicare Parts A
                   and B. For PSCs with no activity or low levels of activity, CMS should
                   determine whether these PSCs have taken all the necessary steps to
                   identify potential fraud and abuse. If CMS finds that not all necessary
                   steps were taken, CMS could provide additional guidance to PSCs about
                   their fraud and abuse detection and deterrence activity levels. CMS
                   could also consider its remedies under the PSC contracts, up to and
                   including contract termination.
                   Require program safeguard contractors to provide more detailed
                   explanations of their investigations, case referrals, and proactive
                   data analysis activities in their monthly reports. CMS should use this
                   information to review PSCs for which activity levels appear low. If
                   workload activity levels are high, CMS can determine the techniques
                   those PSCs are using and share the techniques with other PSCs.

                   CMS should also require PSCs to provide more detailed information
                   about their proactive data analysis efforts. PSCs should identify
                   current proactive data analysis projects and identify the projects’
                   innovative and/or effective aspects.


                   AGENCY COMMENTS
                   CMS concurred in part with our first recommendation. CMS stated that
                   currently it is difficult to compare PSCs. However, CMS has begun
                   implementing a new strategy of aligning PSC jurisdictions with
                   jurisdictions of claims–processing contractors and believes this will make
                   it easier to compare PSCs in the future. CMS also noted that it has
                   begun allocating funds to PSCs based on PSC performance, workload,
                   and Medicare program vulnerabilities.


 OEI-03-06-00010   MEDICARE’S PSCS: ACTIVITIES   TO   DETECT   AND   DETER FRAUD   AND   ABUSE   iii
E X E C U T I V E              S U      M M A R Y


                   CMS stated that acceptable performance of PSCs is not based solely on
                   their development of cases for referral to law enforcement. CMS reports
                   that law enforcement often indicates its preference that PSCs pursue
                   administrative actions rather than referrals.

                   CMS concurred with our second recommendation. CMS stated that it has
                   revised the monthly reporting system to collect more information and to
                   improve reporting consistency across PSCs. Regarding proactive data
                   analysis, CMS stated that this activity has other goals besides referring
                   cases to law enforcement, such as identifying targets for edits, assessing
                   the effectiveness of administrative actions, and assisting law enforcement
                   with their open cases.




 OEI-03-06-00010   MEDICARE’S PSCS: ACTIVITIES   TO   DETECT   AND   DETER FRAUD   AND   ABUSE   iv
Δ   T A B L E          O F           C O N T E N T S



         EXECUTIVE SUMMARY .....................................i




         INTRODUCTION ........................................... 1




         FINDINGS ................................................. 7

                   PSCs differered substantially in workload activities. . . . . . . . . . . . 7 


                   PSCs had minimal results from proactive data analysis . . . . . . . . 9 




         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11 

                   Agency Comments. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12 




         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13 

                   A: 	2005 Program Safeguard Contractors With Benefit 

                         Integrity Task Orders . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13 


                   B: 	Correlation Coefficients . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14 


                   C: 	 Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15 




         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18 

Δ   I N T R O D U C T I O N


                  OBJECTIVE
                  To assess three selected activities that program safeguard contractors
                  (PSC) performed in 2005 to detect and deter fraud and abuse in
                  Medicare Parts A and B.


                  BACKGROUND
                  In our March 2006 study, “Medicare’s Program Safeguard Contractors:
                  Performance Evaluation Reports” (OEI-03-04-00050), the Office of
                  Inspector General (OIG) reviewed annual PSC performance evaluation
                  reports issued by the Centers for Medicare & Medicaid Services (CMS).
                  OIG found that these reports provided minimal information and limited
                  quantitative data about PSC achievements related to detecting and
                  deterring fraud and abuse. The OIG report was preceded by a 2001
                  Government Accountability Office report (GAO-01-616) on PSCs, which
                  found that CMS had “not established clear, measurable performance
                  criteria to assess the PSCs’ performance on individual task orders.”

                  In 2004, CMS began collecting from PSCs a variety of monthly
                  summary statistics for each benefit integrity task order. Because these
                  statistics reflect the volume of PSC workload activities to detect and
                  deter fraud and abuse in Medicare Parts A and B, OIG conducted this
                  current study to gain an understanding of PSC accomplishments in
                  primary workload activities (investigations, case referrals to law
                  enforcement, and proactive data analysis) as reflected in the statistics.
                  Medicare Vulnerabilities
                  Medicare Parts A and B are vulnerable to fraud and abuse because of
                  their size and complexity. In 2005, PSCs were responsible for fraud and
                  abuse oversight of $303 billion in paid claims for Medicare Parts A
                  and B. In addition to services provided by hospitals and physicians,
                  Medicare Parts A and B cover services by home health agencies,
                  laboratories, end stage renal disease facilities, physical therapy
                  facilities, ambulatory surgical centers, rural health clinics,
                  comprehensive outpatient rehabilitation facilities, hospices, ambulance
                  suppliers, and medical equipment suppliers.
                  Fraud and Abuse Contractors
                  The Health Insurance Portability and Accountability Act of 1996
                  (HIPAA), section 202, established the Medicare Integrity Program to
                  strengthen CMS’s ability to deter potential fraud and abuse in the
                  Medicare program. It also gave CMS the authority to transfer the work

OEI-03-06-00010   MEDICARE’S PSCS: ACTIVITIES   TO   DETECT   AND   DETER FRAUD   AND   ABUSE   1
I N T R O D        U C T      I O N


                    of detecting and deterring fraud and abuse from carrier and fiscal
                    intermediary fraud units to new entities under competitive contracts.1
                    As part of the “Medicare Integrity Program,” CMS replaced all carrier
                    and fiscal intermediary fraud units with PSCs through the award of
                    contracts called “benefit integrity task orders.” In 2006, CMS completed
                    the transfer of fraud and abuse work from the fraud units to the PSCs.

                    A typical PSC performance period lasts 1 year, after which CMS has the
                    option of renewing or terminating the task order. In 2005, the year of
                    our evaluation, seven PSCs performed fraud and abuse work under
                    17 benefit integrity task orders. This does not include a task order that
                    lasted only 2 months and was not renewed by CMS. In this report, the
                    term “PSC” represents a PSC benefit integrity task order.

                    Of the 17 PSCs, 14 have responsibility for both Medicare Parts A and B,
                    1 has Part A only, and 2 have Part B only.
                    Primary Activities of Program Safeguard Contractors
                    Pursuant to HIPAA, section 202, PSCs are expected to have capabilities
                    surpassing those of carrier and fiscal intermediary fraud units to detect
                    and deter fraud and abuse and are expected to cooperate with OIG and
                    other law enforcement agencies in the detection and deterrence of fraud
                    and abuse.

                    In CMS’s comments on OIG’s previous report on PSCs (OEI-03-04-
                    00050), CMS stated that PSCs are tasked with identifying potentially
                    fraudulent providers and supporting the efforts of law enforcement and
                    CMS in pursuing civil, criminal, and administrative remedies for fraud.
                    CMS also stated that PSCs focus primarily on investigating allegations
                    of fraud, referring potential fraud cases to law enforcement, and
                    conducting data analysis.
                    Investigations. CMS’s “Program Integrity Manual” (Rev. 71, 04-09-04)
                    states that the purpose of a PSC investigation is to determine the facts
                    and magnitude of alleged fraud and abuse. This includes research and
                    analysis conducted in followup to leads identified proactively or in
                    response to complaints screened by the claims-processing contractor
                    (formerly carriers and fiscal intermediaries and now transitioning to


                      1 The 1998 and 2005 publications of CMS’s proposed rules in the Federal Register
                    (63 Federal Register 13590 and 70 Federal Register 35204, respectively) establish the
                    “Medicare Integrity Program” permitting CMS to contract with eligible entities prior to the
                    publication of a final rule.



 OEI-03-06-00010    MEDICARE’S PSCS: ACTIVITIES   TO   DETECT   AND   DETER FRAUD   AND   ABUSE                   2
I N T R O D        U C T      I O N


                    Medicare administrative contractors). PSCs identify the actual or
                    estimated overpayments associated with their investigations and notify
                    the claims-processing contractor to collect the overpayments. PSCs
                    reported to CMS that in 2005 they identified overpayments of
                    $54,673,571 in connection with their investigations.2
                    Case Referrals to Law Enforcement. Upon completing its investigation,
                    the PSC determines whether to refer the investigation to law
                    enforcement, namely to OIG’s Office of Investigations. Once the referral
                    is made, it is counted as a case in the PSC statistics reported to CMS.
                    Not all investigations become cases. In this report, we use the term
                    “case referral” when discussing cases that have been referred to law
                    enforcement.

                    PSCs identify the actual or estimated overpayments associated with
                    case referrals and notify the claims-processing contractor to collect the
                    overpayments. PSCs reported to CMS that in 2005 they identified
                    overpayments of $119,053,255 in connection with case referrals to law
                    enforcement.3
                    Data Analysis. PSCs are expected to conduct “innovative and effective
                    data analysis for early detection, prevention, intervention, and
                    investigation of potential fraud.”4 CMS expects a significant part of
                    PSC data analysis to be proactive, i.e., self-initiated exploratory
                    analysis that seeks previously unidentified patterns or instances of
                    fraud and abuse.5 PSCs are also expected to use equipment and
                    software technologies that surpass the capability of the equipment and
                    technologies used by their predecessors and to move beyond carrier and
                    fiscal intermediary data analysis methods and choices in data-mining
                    software.6 Unlike the carrier and fiscal intermediary fraud units that
                    had access only to either Part A or Part B data, most PSCs have access
                    to both. This gives PSCs the ability to perform more comprehensive and
                    proactive data analysis of Medicare Parts A and B.




                      2 CMS’s Benefit Integrity Workload Template database, calendar year 2005. 

                      3 Ibid. 

                      4 CMS’s 2004 “Record of Evaluation,” an internal rating tool used during the annual

                    performance evaluation of PSCs.
                      5 CMS’s 2006 PSC Performance Evaluations Guidelines.
                      6 HIPAA, section 202, and CMS’s 2006 PSC Performance Evaluations Guidelines.




 OEI-03-06-00010    MEDICARE’S PSCS: ACTIVITIES   TO   DETECT   AND   DETER FRAUD   AND   ABUSE              3
I N T R O D        U C T      I O N


                    Program Safeguard Contractor Workload Statistics
                    As of July 2004, CMS began collecting monthly summary statistics
                    about PSC workload activities in the Benefit Integrity Workload
                    Template database. This database is part of CMS’s online CMS
                    Analysis, Reporting, and Tracking System (CMS ARTS). The workload
                    activities represented in the 2005 statistics include investigations, case
                    referrals to law enforcement agencies, medical review in support of
                    benefit integrity cases, payment suspensions, law enforcement data
                    requests, fraud alerts, and training and conferences. The numbers of
                    statistics for each activity vary. Below are examples of types of
                    statistics available for investigations and case referrals for Medicare
                    Parts A and B.
                    •	   Number of new investigations opened during the reporting month,
                         source (e.g., proactive data analysis, complaints), and dollar amount
                         of potential overpayments identified.

                    •	   Number of new case referrals to law enforcement during the
                         reporting month, source (e.g., proactive data analysis, complaints),
                         and dollar amount of potential overpayments identified.

                    In this report, the term “workload statistics” refers to statistics included
                    in the Benefit Integrity Workload Template.
                    Program Safeguard Contractor Monthly Status Reports
                    At the time of our review, PSCs provided CMS with required monthly
                    status reports that contained narrative and numerical information
                    describing PSC activities and issues under a specific task order. CMS
                    required that these reports be uploaded monthly into CMS ARTS. CMS
                    did not require a standard format for the reports but did have minimum
                    general requirements for what should be included, such as “prior
                    month’s activities by task and activity” and “any unresolved issues from
                    the prior month.”
                    Recent Changes to Benefit Integrity Workload Template
                    CMS reported that several changes were made to the Benefit Integrity
                    Workload Template beginning in 2007. CMS will now include PSC
                    budget and cost allocations in the template. CMS also eliminated the
                    separate monthly status report and instead PSCs will now add
                    narrative information to the statistics collected in the template.




 OEI-03-06-00010    MEDICARE’S PSCS: ACTIVITIES   TO   DETECT   AND   DETER FRAUD   AND   ABUSE   4
I N T R O D        U C T      I O N 




                    METHODOLOGY
                    Scope
                    For calendar year 2005, we reviewed PSCs’ workload activity for
                    Medicare Parts A and B in the areas of investigations, case referrals to
                    law enforcement agencies, and proactive data analysis. We reviewed
                    data for 17 benefit integrity task orders. Fifteen of these task orders
                    were in effect for 12 months and 2 were in effect for 10 months during
                    2005. Because one additional task order was in effect for only 2 months
                    and it was not renewed by CMS, we did not include it in our review.

                    We assigned an identification letter, from A–Q, to the 17 PSCs in our
                    review. We use these identification letters in our report so that the
                    reader can identify information related to the same PSC across the
                    different tables while still maintaining the confidentiality of the PSC.

                    Appendix A provides the following information about PSCs for 2005.

                    •	   Medicare programs covered by the task order

                    •	   Number of months the task order was active

                    •	   Budget allocation

                    •	   Number of paid Part A and Part B claims for which the PSC had
                         oversight

                    •	   Dollar amount of paid Part A and Part B claims for which the PSC
                         had oversight
                    Data Collection
                    For each PSC task order, we collected monthly workload statistics from
                    the Benefit Integrity Workload Template. We also collected the 2005
                    and 2006 definitions of PSC workload categories in the Template.

                    We collected monthly status reports for each PSC task order. Because
                    15 task orders were in effect for 12 months and the remaining 2 task
                    orders were in effect for 10 months, we collected a total of 200 reports.

                    We also collected the budget allocation and the oversight responsibility
                    data associated with each task order. We use the term “oversight
                    responsibility” to mean dollar amount of Medicare paid claims.
                    Analysis
                    We summarized the workload statistics by workload activity, by
                    Medicare Parts A and B, by month, and by the entire year, for each PSC
                    task order and across all PSC task orders. We identified averages,
                    medians, maximums, and minimums for each activity.

 OEI-03-06-00010    MEDICARE’S PSCS: ACTIVITIES   TO   DETECT   AND   DETER FRAUD   AND   ABUSE   5
I N T R O D        U C T      I O N


                    We calculated the sum of new investigations and new case referrals
                    from reactive and proactive sources in calendar year 2005. We also
                    calculated the percentages of new investigations and new case referrals
                    that originated from proactive data analysis.

                    We analyzed the correlation (strength of relationship) between the level
                    of activity in new investigations and case referrals and the size of PSC
                    budget and oversight responsibilities.

                    We reviewed the monthly status reports to determine whether PSCs
                    addressed proactive data analysis.
                    Limitations
                    We did not collect information from CMS, PSCs, or claims-processing
                    contractors to verify the workload statistics or information in the
                    monthly status reports. We did not determine the quality of either the
                    PSCs’ investigations or their case referrals to law enforcement.
                    Standards

                    This study was conducted in accordance with the “Quality Standards for
                    Inspections” issued by the President’s Council on Integrity and
                    Efficiency and the Executive Council on Integrity and Efficiency.




 OEI-03-06-00010    MEDICARE’S PSCS: ACTIVITIES   TO   DETECT   AND   DETER FRAUD   AND   ABUSE   6
Δ   F I N D I N G S



  Program safeguard contractors differed                                              The number of new investigations
       substantially in the number of new                                             and case referrals varied greatly by
                                                                                      PSC, and some PSCs produced few
   investigations and case referrals to law
                                                                                      new investigations and case
enforcement produced in 2005; some had
                                                                                      referrals in 2005.
minimal activity in these primary workload
                                                                As shown in Table 1, the 15 PSCs
                                categories
                                                                that had responsibility for Medicare
                           Part A produced between 5 and 479 new Part A investigations, with a
                           median of 60. The four lowest PSCs had between 5 and 19 new Part A
                           investigations for the year. In the area of new case referrals to law
                           enforcement, these 15 PSCs produced between 0 and 10 new case
                           referrals, with a median of 3 for the year. Three PSCs had only one new
                           Part A case referral, and two PSCs had none.

                           The 16 PSCs having responsibility for Medicare Part B produced
                           between 18 and 3,707 new Part B investigations, with a median of 196.
                           Three of these 16 PSCs had 80 or fewer new Part B investigations. In
                           the area of new case referrals to law enforcement, these 16 PSCs
                           referred between 2 and 39 Part B cases, with a median of 13 for the
                           year. Three PSCs had only two, three, and four new Part B case
                           referrals, respectively, for the entire year.


     Table 1. PSC Part A and Part B Activity in New Investigations and New Case Referrals to Law
     Enforcement Agencies (sorted by case referrals, n=17)
                         PART A                                                 PART B
     PSC Task Order         Investigations       Case Referrals                PSC Task Order          Investigations   Case Referrals
              A                    125                    0                             F                   679                 2
              L                     19                    0                             J                    18                 3
              B                     31                    1                             L                    80                 4
              G                     5                     1                             A                  1,141                8
              N                     12                    1                             H                   142                 8
              F                    479                    2                             D                   406                11
              P                     28                    2                             P                   139                11
              C                     38                    3                             G                   106                12
              D                     14                    3                             M                   996                13
              Q                     84                    3                             B                   153                14
              H                    224                    4                             K                    75                14
              K                     79                    4                             Q                   886                15
              I                     60                    5                             O                   223                25
              J                    127                    9                             C                   169                32
              M                    196                   10                             E                  3,707               33
              E                    n/a                   n/a                            I                  1,054               39
              O                    n/a                   n/a                            N                   n/a                n/a
            Total                 1,521                   48                          Total                9,974              244
           Median                  60                     3                          Median                 196                13
     Source: OIG analysis of CMS's Benefit Integrity Workload Template 2005 data.


OEI-03-06-00010            MEDICARE’S PSCS: ACTIVITIES         TO   DETECT   AND   DETER FRAUD   AND   ABUSE                             7
F   I N D I N G            S


                          Neither the size of a program safeguard contractor’s budget nor its
                          oversight responsibility was strongly correlated with the number of new
                          investigations or case referrals to law enforcement
                          Although PSCs might be expected to differ from one another in
                          workload activity levels, neither the size of a PSC’s budget nor its
                          oversight responsibility (dollar amount of Medicare paid claims) was
                          strongly correlated with the number of new investigations or the
                          number of new case referrals to law enforcement produced in 2005.
                          Appendix B contains the correlation coefficients.

                          For instance, as shown in Table 2 below, PSCs G and D are both
                          responsible for Medicare Parts A and B. In 2005, PSC G had 111 new
                          investigations and 13 new case referrals with the highest budget
                          allocation and almost the highest oversight responsibility. In contrast,
                          PSC D had 420 new investigations and 14 new case referrals but had
                          less than half the budget and less than one-third of the oversight
                          responsibility of PSC G.

                          Although PSCs C and P had similar levels of oversight responsibility,
                          PSC C produced more investigations and more than twice as many case
                          referrals with a smaller budget allocation than PSC P.


       Table 2. Size of PSC Budget and Oversight Responsibility Compared to Workload Activity in New Investigations and
       New Case Referrals (sorted by budget allocation, n=17)
       PSC                        Dollar Amount of        Dollar Amount           Dollar Amount             Number of         Number of
       Task           Budget           Paid Claims        of Paid Claims          of Paid Claims        Investigations    Case Referrals
       Order      Allocations        Parts A and B                Part A                  Part B         Parts A and B     Parts A and B
         G         $9,316,750      $32,608,874,051       $30,122,833,543          $2,486,040,508                    111               13
         I         $9,234,176      $16,061,254,458        $9,879,110,033          $6,182,144,425                 1,114                44
         H         $9,159,828      $38,627,435,953       $32,804,312,314          $5,823,123,639                    366               12
         K         $8,191,839      $21,959,723,581       $17,961,026,386          $3,998,697,195                    154               18
         Q         $7,159,648      $16,828,770,952        $8,372,462,619          $8,456,308,333                    970               18
         A         $7,083,680      $26,044,518,589       $22,433,987,042          $3,610,531,547                  1,266                8
        M          $7,035,096      $33,461,032,180       $24,767,547,520          $8,693,484,660                  1,192               23
         N         $6,941,000       $4,840,800,571        $4,840,800,571                      $0                     12                1
         O         $6,579,116       $1,370,257,300                    $0          $1,370,257,300                    223               25
         E         $5,201,210       $6,938,670,223                    $0          $6,938,670,223                  3,707               33
         J         $4,708,763      $14,266,760,684       $13,118,796,561          $1,147,964,123                    145               12
         F         $4,643,975      $34,001,129,627       $31,486,329,750          $2,514,799,877                  1,158                4
         P         $4,208,991      $11,887,536,412        $8,291,721,600          $3,595,814,812                    167               13
         D         $4,042,433       $9,360,881,234        $6,142,707,019          $3,218,174,215                    420               14
         L         $3,226,096      $11,139,110,800        $7,148,627,324          $3,990,483,476                     99                4
         B         $3,038,729      $13,444,256,435        $9,463,286,619          $3,980,969,816                    184               15
         C         $2,332,467      $10,162,135,021        $7,485,513,031          $2,676,621,990                    207               35

       Totals   $102,103,797      $303,003,148,071      $234,319,061,932         $68,684,086,139                11,495              292
       Source: CMS’s Program Integrity Group and OIG analysis of Benefit Integrity Workload Template 2005 data.

    OEI-03-06-00010       MEDICARE’S PSCS: ACTIVITIES   TO   DETECT   AND   DETER FRAUD   AND   ABUSE                          8
F    I N D I N G            S       





       Most program safeguard contractors had                    There were minimal results from
    minimal results from proactive data analysis                 proactive data analysis in the
                                                                 areas of new investigations and
                           case referrals to law enforcement in 2005. As shown in Table 3 below,
                           three-quarters of PSCs (13 of 17) had 18 percent or less of their new
                           investigations from proactive data analysis. Seven of these thirteen
                           PSCs had 8 percent or less. Two of these PSCs produced no new
                           investigations from proactive data analysis, and one PSC initiated one
                           new investigation based on this source.


Table 3. Proactive Data Analysis as Source of New Investigations and New Case Referrals to Law
Enforcement Agencies (n=17)
                           Investigations                                                                Case Referrals

                                  Number of        Percentage of                                             Number of     Percentage of
 PSC                          Investigations       Investigations    PSC            Number of            Case Referrals   Case Referrals
 Task         Number of      From Proactive       From Proactive     Task                Case            From Proactive   From Proactive
Order     Investigations       Data Analysis        Data Analysis Order              Referrals            Data Analysis    Data Analysis
  E                 3,707                    0                 0%     F                      4                        0              0%
  H                   366                    0                 0%     E                    33                         1              3%
  M                 1,192                  20                  2%     M                    23                         1              4%
  D                   420                    8                 2%     B                    15                         1              7%
  Q                   970                  55                  6%     H                     12                        1              8%
  C                   207                  12                  6%     K                     18                        2             11%
  N                     12                   1                 8%     A                      8                        1             13%
  B                   184                  24                13%      P                     13                        2             15%
  L                     99                 13                13%      Q                     18                        3             17%
  P                   167                  27                16%      L                      4                        1             25%
   I                1,114                 183                16%      C                     35                       10             29%
  J                   145                  24                17%       I                    44                       13             30%
  O                   223                  39                18%       J                    12                        4             33%
  A                 1,266                 490                39%      D                     14                        8             57%
  K                   154                  69                45%      O                     25                       17             68%
  F                 1,158                 692                60%      G                     13                       12             92%
  G                   111                  74                67%      N                      1                        1            100%
Totals            11,495                1,731                15% Totals                   292                        78             27%
Source: OIG analysis of CMS's Benefit Integrity Workload Template 2005 data.



                           In the area of new case referrals to law enforcement, almost half the
                           PSCs (7 of 17) had only one case referral originating from proactive data
                           analysis. For 9 PSCs, 17 percent or less of their new case referrals
                           resulted from proactive data analysis. Of these PSCs, five had 8 percent
                           or less, and one had no new case referrals from this source.

                           In addition to conducting our review of workload statistics, we reviewed
                           PSC monthly status reports for any descriptions of proactive data
                           analysis. Although CMS does not specifically require that proactive

    OEI-03-06-00010        MEDICARE’S PSCS: ACTIVITIES   TO   DETECT   AND   DETER FRAUD   AND   ABUSE                         9
F   I N D I N G        S


                      data analysis projects and their results be included in monthly status
                      reports, it does ask that the PSCs’ prior month’s activities be included in
                      the reports.

                      We found that all PSCs mentioned proactive data analysis in at least
                      four monthly status reports during the year. We do not know if the
                      absence of information about proactive data analysis in the remaining
                      months indicates that the activity did not take place. In the reports
                      that mentioned proactive data analysis, some PSCs repeated the exact
                      language about the same project in numerous monthly reports. After
                      the initial mention of a proactive data analysis project, subsequent
                      reports that referenced the same project provided no new or additional
                      information about the project or its results.

                      We found no consistency across PSCs regarding the level of detail about
                      proactive data analysis included in the monthly status reports.
                      Therefore, based on information in the reports, we could not determine
                      whether the low numbers of proactive investigations and case referrals
                      to law enforcement reported in the workload statistics were the result of
                      PSCs performing proactive data analysis that did not yield cases of
                      potential fraud and abuse for further investigation or the result of PSCs
                      not performing substantial proactive data analysis overall.




    OEI-03-06-00010   MEDICARE’S PSCS: ACTIVITIES   TO   DETECT   AND   DETER FRAUD   AND   ABUSE   10
Δ      R E C O M M E N D A T I O N S



                  PSCs were established to strengthen CMS’s ability to detect and deter
                  potential fraud and abuse in the Medicare program. OIG has not found
                  strong evidence that this is occurring across all PSCs for the three
                  workload activities we reviewed. Based on the 2005 Benefit Integrity
                  Workload Template statistics and monthly status reports, OIG found
                  that some PSCs had minimal or no activity in new investigations or case
                  referrals to law enforcement. PSCs also had minimal results from
                  proactive data analysis, which was expected to be a significant activity
                  of PSCs and distinguish them from their predecessors.
                  To determine why certain PSCs have minimal or no activity in new
                  investigations or new case referrals to law enforcement, especially as a
                  result of proactive data analysis, CMS should:

                  Review program safeguard contractors with especially low volumes
                  of activity in investigations and case referrals for Medicare Parts A
                  and B
                  For PSCs with no activity or low levels of activity, CMS should
                  determine whether these PSCs have taken all the necessary steps to
                  identify potential fraud and abuse. If CMS finds that not all necessary
                  steps were taken, CMS could provide additional guidance to PSCs about
                  their fraud and abuse detection and deterrence activity levels. CMS
                  could also consider its remedies under the PSC contracts, up to and
                  including contract termination. Under the umbrella contracts
                  governing the various task orders, CMS may terminate a contract if the
                  PSC defaults in performing its obligations.

                  Require program safeguard contractors to provide more detailed
                  explanations of their investigations, case referrals, and proactive
                  data analysis activities in their monthly reports
                  CMS should use this information to review PSCs for which activity levels
                  appear low. If workload activity levels are high, CMS can determine the
                  techniques those PSCs are using and possibly share the techniques with
                  other PSCs.

                  CMS should also require PSCs to provide more detailed information
                  about their proactive data analysis efforts. PSCs should identify
                  current proactive data analysis projects and identify the projects’
                  innovative and/or effective aspects.




OEI-03-06-00010   MEDICARE’S PSCS: ACTIVITIES   TO   DETECT   AND   DETER FRAUD   AND   ABUSE   11
R   E C O        M M E N D A T           I O N           S         




                      AGENCY COMMENTS
                      CMS concurred in part with our first recommendation to review PSCs
                      with especially low volumes of activity in investigations and case
                      referrals. CMS stated that the variation in workloads and geographical
                      jurisdictions between PSCs makes it difficult to directly compare PSCs’
                      efforts. However, CMS has begun implementing a new contracting
                      strategy to align PSC jurisdictions with the jurisdictions of claims–
                      processing contractors and believes this will make it easier to compare
                      PSCs in the future. CMS also noted that it has begun allocating funds to
                      PSCs based on PSC performance, workload, and Medicare program
                      vulnerabilities.

                      CMS stated that acceptable performance of PSCs is not based solely on
                      their development of cases for referral to law enforcement. CMS reports
                      that law enforcement often indicates its preference that PSCs pursue
                      administrative actions rather than referrals.

                      CMS concurred with our second recommendation to require PSCs to
                      provide more detailed explanations of their investigations, case referrals,
                      and proactive data analysis activities in their monthly reports. CMS
                      stated that it has revised the monthly reporting system to collect more
                      information and to improve reporting consistency across PSCs.

                      With regard to proactive data analysis, CMS stated that this activity has
                      other goals besides referring cases to law enforcement, such as identifying
                      targets for edits, assessing the effectiveness of administrative actions,
                      and assisting law enforcement with their open cases. The full text of
                      CMS’s comments is provided in Appendix C.




    OEI-03-06-00010   MEDICARE’S PSCS: ACTIVITIES   TO   DETECT   AND   DETER FRAUD   AND   ABUSE   12
Δ           A P P E N D I X                         A



2005 Program Safeguard Contractors (PSC) With Benefit Integrity Task Orders (n=17)

PSC                                    Months                               Number of          Number of              Dollar Amount     Dollar Amount
Task                                Task Order             Budget          Paid Claims        Paid Claims             of Paid Claims    of Paid Claims
Order      Medicare Programs        Was Active          Allocation              Part A             Part B                     Part A            Part B
          Part A hospitals
  A       Part A home health                  12      $7,083,680            20,807,426          43,984,933           $22,433,987,042    $3,610,531,547
          Part B physicians

          Part A hospitals
  B                                           12      $3,038,729            10,467,606          49,807,501            $9,463,286,619    $3,980,969,816
          Part B physicians

          Part A hospitals
  C                                           12      $2,332,467             7,362,719          30,442,872            $7,485,513,031    $2,676,621,990
          Part B physicians

          Part A hospitals
  D                                           12      $4,042,433             7,510,708          38,386,833            $6,142,707,019    $3,218,174,215
          Part B physicians

  E       Part B physicians                   12      $5,201,210                         0      66,776,723                       $0     $6,938,670,223

          Part A hospitals
   F                                          12      $4,643,975            21,875,279          31,118,549           $31,486,329,750    $2,514,799,877
          Part B physicians

          Part A hospitals
  G                                           12      $9,316,750            24,692,061          25,920,332           $30,122,833,543    $2,486,040,508
          Part B physicians

          Part A hospitals
  H       Part A home health                  12      $9,159,828            33,559,768          70,175,227           $32,804,312,314    $5,823,123,639
          Part B physicians

          Part A hospitals
   I                                          12      $9,234,176            11,505,945          72,066,690            $9,879,110,033    $6,182,144,425
          Part B physicians

          Part A hospitals
   J      Part A home health                  12      $4,708,763             6,563,509          13,460,733           $13,118,796,561    $1,147,964,123
          Part B physicians

          Part A hospitals
  K       Part A home health                  12      $8,191,839            15,766,970          46,711,525           $17,961,026,386    $3,998,697,195
          Part B physicians

          Part A hospitals
   L                                          10      $3,226,096             7,415,334                                $7,148,627,324    $3,990,483,476
          Part B physicians                                                                     48,470,878

          Part A hospitals
  M                                           12      $7,035,096            22,647,652          90,720,697           $24,767,547,520    $8,693,484,660
          Part B physicians

  N       Part A hospitals                    12      $6,941,000             4,539,310                       0        $4,840,800,571               $0

          Part B medical
  O                                           12      $6,579,116                         0      10,850,302                       $0     $1,370,257,300
          equipment

          Part A hospitals
  P                                           12      $4,208,991             7,884,208          44,326,406            $8,291,721,600    $3,595,814,812
          Part B physicians

          Part A hospitals
  Q                                           10      $7,159,648             7,361,298          79,739,197           $8,372,462,619     $8,456,308,333
          Part B physicians

                           Totals                  $102,103,797            209,959,793        762,959,398        $234,319,061,932      $68,684,086,139

Source: CMS, Program Integrity Group, 2005.




           OEI-03-06-00010           MEDICARE’S PSCS: ACTIVITIES     TO   DETECT   AND   DETER FRAUD   AND   ABUSE                         13
Δ   A P P E N D I X                      B

                   Correlation Coefficients
                   We performed Pearson’s correlations to determine the strength of the
                   relationship between the variables in each of the following four pairs:
                   •   Budget allocations and new investigations
                   •   Budget allocations and new case referrals
                   •   Oversight responsibility and new investigations
                   •   Oversight responsibility and new case referrals
                   As shown in the tables below, a correlation coefficent was calculated for
                   each of the relationships listed above. The correlation coefficient is a
                   number that ranges from -1 to +1. If a positive correlation exists
                   between two variables, the value of one variable will increase as the
                   value of the other variable increases. If a negative correlation exists
                   between two variables, the value of one variable will decrease as the
                   value of the other variable increases.


                  Table 1. Correlation: Budget Allocations and New Investigations
                                                                                                           Number of New
                                                                            Budget Allocations              Investigations
                  Budget allocations                                                        1.0                       0.06
                  Number of new investigations                                            0.06                          1.0
                  Source: OIG analysis of 2005 CMS data.


                  Table 2. Correlation: Budget Allocations and New Case Referrals
                                                                                                           Number of New
                                                                                                         Case Referrals to
                                                                            Budget Allocations           Law Enforcement
                  Budget allocations                                                        1.0                      0.11
                  Number of new case referrals to law enforcement                         0.11                         1.0
                  Source: OIG analysis of 2005 CMS data.



                  Table 3. Correlation: Oversight Responsibility and New Investigations
                                                                                Dollar Amount of           Number of New
                                                                                     Paid Claims            Investigations
                  Oversight responsibility (Dollar amount of paid
                  claims)                                                                          1.0                0.02
                  Number of new investigations                                                    0.02                 1.0
                  Source: OIG analysis of 2005 CMS data.



                  Table 4. Correlation: Oversight Responsibility and New Case Referrals
                                                                                                           Number of New
                                                                             Dollar Amount of            Case Referrals to
                                                                                  Paid Claims            Law Enforcement
                  Oversight responsibility (Dollar amount of paid
                  claims)                                                                      1.0                    -0.22
                  Number of new case referrals to law enforcement                            -0.22                      1.0
                  Source: OIG analysis of 2005 CMS data.



OEI-03-06-00010    MEDICARE’S PSCS: ACTIVITIES    TO   DETECT   AND   DETER FRAUD   AND   ABUSE                         14
Δ   A P P E N D I X                  C


     Agency Comments




OEI-03-06-00010   MEDICARE’S PSCS: ACTIVITIES   TO   DETECT   AND   DETER FRAUD   AND   ABUSE   15
A   P   P E N D       I X      ~      C




    OEI-03-06-00010   MEDICARE’S PSCS: ACTIVITIES   TO   DETECT   AND   DETER FRAUD   AND   ABUSE   16
A   P   P E N D       I X      ~      C




    OEI-03-06-00010   MEDICARE’S PSCS: ACTIVITIES   TO   DETECT   AND   DETER FRAUD   AND   ABUSE   17
Δ   A C K N O W L E D G M E N T S


                  This report was prepared under the direction of Robert A. Vito, Regional
                  Inspector General for Evaluation and Inspections in the Philadelphia
                  regional office, and Linda M. Ragone, Deputy Regional Inspector
                  General.

                  Isabelle Buonocore served as the team leader for this study. Other
                  principal Office of Evaluation and Inspections staff from the
                  Philadelphia regional office who contributed to this report include
                  Cynthia Hansford and Conswelia McCourt; central office staff who
                  contributed include Scott Manley and Barbara Tedesco.




OEI-03-06-00010   MEDICARE’S PSCS: ACTIVITIES   TO   DETECT   AND   DETER FRAUD   AND   ABUSE   18
